OFFICE OF INSPECTOR GENERAL
                     Audit Report
Fiscal Year 2011 Evaluation of Information Security
         at the Railroad Retirement Board



        This abstract summarizes the results of the subject audit. The
        full report includes information protected from disclosure and
        has been designated for limited distribution pursuant to
        5 U.S.C. § 552




                         Report No. 12-02
                         January 05, 2012




   RAILROAD RETIREMENT BOARD
                                 REPORT ABSTRACT
                 Fiscal Year 2011 Evaluation of Information Security
                          at the Railroad Retirement Board

The Office of Inspector General for the Railroad Retirement Board (RRB) conducted an
evaluation of information security at the RRB for fiscal year (FY) 2011, which is
mandated by the Federal Information Security Management Act of 2002 (FISMA). The
objectives of our evaluation included testing the effectiveness of the information security
policies, procedures, and practices of a representative subset of the agency’s
information systems; and a report on selected elements of the agency’s information
security program to be prepared in compliance with Office of Management and Budget’s
FY 2011 FISMA reporting instructions.

In a separately issued Restricted Distribution report, we communicated that the RRB
continues to make progress in implementing an information security program that meets
the requirements of FISMA; yet a fully effective security program has not been
achieved. The significant deficiency in the internal control structure over the review of
contractor deliverables, associated with the risk management framework, remains
unresolved. Additionally, we are citing the RRB with a significant deficiency in its
security configuration management program. We also noted some lesser deficiencies
in the RRB’s security program. In total, we made 13 detailed recommendations to RRB
management related to:

       developing and implementing a comprehensive risk management governance
        strategy that builds information security capabilities into federal information
        systems, maintains awareness of the systems’ security state, and provides
        essential information to facilitate decisions;
       obtaining the necessary funding and resources to decommission unsupported
        equipment;
       providing additional security awareness training to employees;
       improving data collection methods, and performing a quality assurance review of
        security incidents and data reported internally and externally;
       implementing and performing a quarterly quality assurance review for the
        preparation and processing of system access re-authorizations; and
       formally reviewing and publishing the agency’s Capital Planning and Investment
        Control Guide.

    RRB management has agreed to take corrective actions for all recommendations.




                                             1
 
